                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                        FINAL REPORT:

                ADMINISTRATION OF PAYMENTS
                  RECEIVED UNDER THE HELP
                AMERICA VOTE ACT BY THE OHIO
                    SECRETARY OF STATE




Report No.
E-HP-OH-09-06
May 2007
                               U.S. ELECTION ASSISTANCE COMMISSION
                                       OFFICE OF INSPECTOR GENERAL
                                      1225 New York Ave. NW - Suite 1100
                                             Washington, DC 20005




                                                                                May 3, 2007

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help
           America Vote Act by the Ohio Secretary of State (Assignment Number E-HP-
           OH-09-06)

        This report presents the results of the subject audit. The objectives of the audit
were to determine whether Ohio (1) expended Help America Vote Act (HAVA)
payments in accordance with the Act and related administrative requirements and (2)
complied with the HAVA requirements for replacing punch card or lever voting
machines, for appropriating a 5 percent match for requirements payments, for
establishing an election fund, and for maintaining state expenditures for elections at a
level not less than expended in fiscal year 2000.

        The report concluded that Ohio generally complied with requirements and
identified the following areas needing management attention:

        9 Ohio did not deposit interest of approximately $7 million earned on HAVA
          payments and State matching funds in the State election fund in accordance
          with HAVA Section 254(b)(1).

        9 Ohio advanced HAVA funds to counties that exceeded the counties’
          immediate cash needs. Advancing funds before they were needed reduced the
          interest that was earned by the election fund.

        9 Ohio incorrectly charged salary costs and fringe benefits to the HAVA
          accounts resulting in a minor overpayment of $875.

        In a March 20, 2007 response to the draft report (Appendix C), the Ohio Secretary
of State agreed with the report’s findings. Regarding the interest due on the HAVA funds,
the Secretary of State indicated that Ohio had deposited $6.8 million into the State
HAVA fund. In addition, the Secretary of State proposed that additional interest due be
offset against Ohio’s appropriation of excess matching funds for the Federal requirements
payments. The response also said that counties would be required to return any unspent
HAVA grant monies to the Secretary of State and adjustments had been made for the
overcharged salary and fringe benefit costs.

        Please provide us with your written response to the recommendations included in
this report by July 6, 2007. Your response should contain information on actions taken or
planned, including target dates and titles of EAC officials responsible for implementing
the recommendations.

       Section 5(a) of the Inspector General Act (5 U.S.C. § App.1) requires the Office
of Inspector General to list this report in its semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.




                                            2
               BACKGROUND

               The Help America Vote Act of 2002 (HAVA or the Act) created the
HELP AMERICA   U.S. Election Assistance Commission (EAC or Commission) to assist
VOTE ACT       States and insular areas with the improvement of the administration of
               Federal elections and to provide funds to States to help implement
               these improvements. HAVA authorizes payments to States under Titles
               I and II, as follows:

                  9 Title I, Section 101 payments are for activities such as
                    complying with Title III of HAVA for uniform and
                    nondiscriminatory election technology and administration
                    requirements, improving the administration of elections for
                    Federal office, educating voters, training election officials and
                    poll workers, and developing a State plan for requirements
                    payments.

                  9 Title I, Section 102 payments are available only for the
                    replacement of punch card and lever-action voting systems.

                  9 Title II, Section 251 requirements payments are for complying
                    with Title III requirements for voting system equipment and for
                    addressing provisional voting, voting information, statewide
                    voter registration lists, and voters who register by mail.

               Title II also requires that States must do the following:

                  9 Appropriate funds for carrying out the activities for which
                    requirements payments are made “equal to 5 percent of the total
                    amount to be spent for such activities.” (Section 253(b)(5)).

                  9 “Maintain the expenditures of the State for activities funded by
                    the [requirements] payment at a level that is not less than the
                    level of such expenditures maintained by the State for the fiscal
                    year ending prior to November 2000.” (Section 254 (a)(7)).

                  9 Establish an election fund for amounts appropriated by the
                    State “for carrying out the activities for which the requirements
                    payment is made,” for the Federal requirements payments
                    received, for “such other amounts as may be appropriated under
                    law,” and for “interest earned on deposits of the fund.” (Section
                    254 (b)(1)).




                                      1
               HAVA and State matching funds received and expended by Ohio are
FUNDING FOR    as follows:
OHIO
                  TYPE OF           AMOUNT               EXPENDITURES
                  PAYMENT          RECEIVED           AMOUNT       AS OF

                  101                $10,384,931       $10,384,931    6/30/2006
                  102                 30,667,664        30,667,664    6/30/2006
                  251                 90,992,517        67,889,088    6/30/2006
                  State Match          5,800,000         5,800,000    6/30/2006

                  Totals            $137,845,112      $114,741,683

               Within the Office of the Ohio Secretary of State (Office), HAVA
FINANCIAL
               programs are administered by the Elections Division and HAVA
MANAGEMENT     payments are made by the Finance Division. To account for the
REQUIREMENTS   payments, HAVA requires States to maintain records that are
               consistent with sound accounting principles that fully disclose the
               amount and disposition of the payments, that identify project costs
               financed with the payments and with other sources, and that will
               facilitate an effective audit.

               In addition, the Commission notified States of other management
               requirements. Specifically, that States must do the following:

                  9 Comply with the Uniform Administrative Requirements for
                    Grants and Cooperative Agreements with State and Local
                    Governments (also known as the “Common Rule” and
                    published in 41 CFR 105-71).

                  9 Expend payments in accordance with cost principles for
                    establishing the allowability of certain items of cost for Federal
                    participation issued by the Office of Management and Budget
                    (OMB) in Circular A-87.

                  9 Submit annual financial reports on the use of Title I and Title II
                    payments.

               The objective of our audit was to determine whether the Office (1)
OBJECTIVE      expended HAVA payments in accordance with the Act and related
               administrative requirements and (2) complied with the HAVA
               requirements for replacing punch card or lever voting machines, for
               establishing an election fund, for obtaining a 5 percent match of the
               funds for activities financed with Section 251 requirements payments
               from the State, and for maintaining State expenditures for elections at a
               level not less than expended in fiscal year 2000.




                                      2
Specifically, we audited expenditures for Ohio’s fiscal years 2004
through 2006 and reviewed controls to assess their adequacy over the
expenditure of HAVA funds. We also evaluated compliance with
certain HAVA requirements for the following activities:

   9 Accumulating financial information reported to EAC on the
     Financial Status Reports (Standard Form number 269).
   9 Accounting for property.
   9 Purchasing goods and services.
   9 Accounting for salaries.
   9 Spending by counties.

We also determined whether the Office had complied with the
requirements in HAVA applicable to Section 251 requirements
payments for the following activities:

   9 Establishing and maintaining the election fund.
   9 Appropriating funds equal to 5 percent of the amount necessary
     for carrying out activities financed with Section 251
     requirements payments.
   9 Sustaining the State’s level of expenditures for elections.




                      3
           RESULTS OF THE AUDIT

           We concluded that the Office generally administered HAVA funds in
SUMMARY    accordance with requirements. We also found that Ohio properly
           established the State election fund, appropriated and deposited into the
           election fund its matching monies, and sustained the appropriate level of
           State expenditures for elections. Ohio did not, however, deposit into the
           election fund, as required by HAVA, interest earned on the HAVA
           payments and on State matching funds. Based on our inquiries, the Ohio
           legislature instructed the Director of Ohio’s Office of Budget and
           Management (OBM) to deposit into the election fund interest of $6.8
           million earned on the HAVA funds. Interest earned on the State matching
           funds is not yet resolved.

           We also found that the Office needs to improve its administrative
           procedures to minimize the time between its advance and county
           expenditure of HAVA funds and to accurately identify salaries financed
           with HAVA funds.

           The Office did not deposit interest earned on HAVA payments and State
INTEREST   matching funds in the State election fund in accordance with
           requirements. HAVA, in Section 254(b)(1) requires States to deposit
           requirements payments, funds appropriated to match the requirements
           payment, and interest into a State election fund, described as follows:

                  . . . a fund which is established in the treasury of the State
                  government, which is used in accordance with paragraph
                  (2), and which consists of the following amounts:
                         (A) Amounts appropriated or otherwise made
                             available by the State for carrying out the
                             activities for which the requirements payment
                             is made to the State under this part.
                         (B) The requirements payment made to the State
                             under this part.
                         (C) Such other amounts as may be appropriated
                             under law.
                         (D) Interest earned on deposits of the fund.

           The General Services Administration electronically transferred the
           HAVA Sections 101, 102, and 251 funds to a State account in Key Bank.
           The State Controlling Board set up several funds for the Office to receive
           and expend the appropriation of these HAVA funds. It also set up a fund
           to receive and expend the appropriation of the State matching funds of
           $5.8 million. Section 254 (b)(2) of HAVA requires that amounts “in the
           fund shall be used by the State exclusively to carry out the activities for



                                    4
                        which the requirements payment is made to the State under this part.”
                        Thus, interest earned on HAVA payments and State matching funds must
                        be used only for authorized activities. However, we found that the State
                        deposited interest earned on HAVA and the matching funds into the
                        General Revenue Fund (GRF) of the State, which was not reserved of use
                        only on HAVA-related activities. .

                        The interest issue occurred because Ohio law 1 requires that all interest
                        earned on deposits with the State Treasurer be credited to the GRF unless
                        specific State legislation provides otherwise. Also, staff of the Office
                        inquired of the OBM whether interest earned would be deposited into the
                        HAVA fund accounts. The OBM stated that no interest would be paid to
                        the HAVA fund accounts unless the State statute authorizing the funds
                        specifically stated that interest was to be earned on the fund deposits.

                        According to responses to our inquiries, the Office and the OBM agreed
                        that interest on HAVA funds should be credited to and deposited in the
                        HAVA funds. OBM calculated that the State earned approximately $6.8
                        million as of June 30, 2006, on HAVA sections 101, 102, and 251 funds.
                        It did not, however, compute the interest on the State matching funds of
                        $5.8 million, which was appropriated by the State legislature effective
                        March 14, 2003.

                        Subsequently, the 126th General Assembly of the Ohio legislature passed
                        Amended Substitute House Bill 699, which required the Director of OBM
                        to transfer the $6.8 million in interest earned on HAVA funds through
                        June 30, 2006, and subsequent interest earnings into the HAVA funds
                        accounts. We noted, however, that had the State Treasurer credited the
                        interest quarterly to the HAVA funds instead of depositing the interest
                        into the GRF, the HAVA fund balance on which the interest would be
                        calculated would have been larger. Thus, the amount of interest earned
                        would be greater than the $6.8 million plus subsequent interest earnings
                        authorized by the Ohio legislature.

                        Recommendation
                        We recommend that the EAC require the Office to request legislative
                        approval to:

                            1. Calculate and pay interest on the State matching funds of $5.8
                               million to the HAVA requirements fund accounts.


1
 Section 113.09 of the Ohio Revised Code states: “Except as provided in section 113.10 of the Revised
Code, all moneys deposited with the treasurer of state, the disposition of which is not otherwise provided
for by law, shall be credited to the general revenue fund, which is hereby created in the state treasury . . .
All investment earnings on moneys deposited in the state treasury shall be credited to the general revenue
fund unless (A)The disposition of the earnings is otherwise provided for by law; …”



                                                       5
                   2. Calculate the additional interest that would have been earned on
                      the HAVA funds from 2004 to December 2006 had interest been
                      deposited to the HAVA fund accounts on a quarterly basis.

                   3. Deposit the interest on the State Match and the additional interest
                      on the HAVA funds into the appropriate HAVA Section 251 fund
                      account.

                Secretary of State Response

                The Secretary of State agreed with the findings and said that $6.8 million
                had already been deposited into Ohio’s HAVA funds to resolve the
                interest due on the State’s matching funds. The Secretary of State also
                stated that she believed it would be “overly burdensome, expensive, and
                manually laborious” to calculate additional interest. As an alternative, she
                proposed using the state’s approximate $1 million overmatch of HAVA
                requirements payments to offset the additional interest. The OBM
                estimated the additional interest to be about $212,290.

                Office of Inspector General Comments

                The Secretary of State’s proposal to resolve the additional interest appears
                reasonable. However, the EAC must make the final determination on the
                appropriateness of the proposed solution.


                The Office advanced HAVA funds to counties that exceeded the counties’
CASH       immediate cash needs. This practice is not consistent with the cash
MANAGEMENT management requirements included in 41 CFR 105-71.120(b)(7), which
                provide that a State should have procedures for “minimizing the time
                elapsing between the transfer of funds from the U.S. Treasury and
                disbursement by grantees and subgrantees . . . whenever advance payment
                procedures are used.” Advancing funds before they are needed reduces
                the interest that is earned by the election fund.

                This situation occurred because the OBM had advised the Office that they
                could not retain interest and because the Office did not incorporate any
                cash management provisions in its county grants for voter registration. In
                addition, while the voter education and poll worker training grants
                incorporated by reference the Federal administrative requirements for
                grants, they did not specify any cash management guidelines. Such
                guidance could explain how soon advances must be used; whether they
                may be invested until needed; what to do with interest earned on the
                advanced funds, if any; and whether unused funds and earned interest
                should be returned to the Office. Instead, once grants were signed, the
                Office, in most instances, sent checks to the counties for the entire amount
                of the grants.


                                         6
Overall, the Office advanced $5.4 million in HAVA funds to counties for
voter education, poll worker training, and the voter registration system. A
review of the three largest Ohio counties (Cuyahoga, Hamilton, and
Franklin) revealed that the counties did not expend a significant portion of
the advanced funds for extensive periods of time. Further, the counties
had not returned the unspent funds to the Office.

                             UNEXPENDED ADVANCES
         Recipient            Grant Check   Quarters                      Amount
      and Grant Type             Date     Outstanding*                   Outstanding
    Cuyahoga County
    Voter education and
    poll worker training          06/03/05                4                 257,933

     Voter registration           12/01/03                2                 150,000
     Franklin County
    Voter education and
    poll worker training          07/19/05                3                 198,963

     Voter registration           04/20/04                1                 352,959
                                                          1                 317,584
                                                          7                 264,522
     Hamilton County
    Voter education and
    poll worker training          06/16/05                2                 158,378
                                                          2                 156,973

     Voter registration           12/11/03                3                 130,577
                                                          7                  91,319


*We calculated the quarters outstanding by using the time elapsed from the date of the
grant check to the date the funds were reported as expended, or until June 30, 2006, if the
funds had not been reported as expended. We rounded the result to the nearest quarter of
a year.

Recommendations

We recommend that the EAC require the Office to:

    4. Reimburse the Ohio HAVA funds for the interest lost on the
       excess advances made to Cuyahoga, Franklin, and Hamilton
       Counties where the time between the advance and the
       disbursement of the funds exceeded more than 3 days.

    5. Determine the extent of any other outstanding advances to
       counties and reimburse the Ohio HAVA funds for the interest lost



                              7
                        on the advances made in excess of 3 days from the time the
                        counties spent them.

                     6. Develop policies and procedures for minimizing the time elapsing
                        between the transfer of funds from the Ohio Treasury and
                        disbursement by grantees whenever advance payment procedures
                        are used.

                     7. Inform the counties receiving HAVA funds of the 41 CFR 105-
                        71.120(b)(7) requirement for minimizing the time elapsing
                        between the transfer of funds from the Ohio Treasury and
                        disbursement by grantees and the policies and procedures
                        developed as a result of Recommendation 6 above.

                 Secretary of State’s Response

                 The Secretary of State generally agreed with the finding said that it will
                 “develop policies and procedures - and inform the counties of these
                 policies - to minimize the time elapsing between the transfer of funds
                 from the Secretary’s Office to the counties and the counties’ use of those
                 funds.”

                 The Secretary of State also said that implementing the other
                 recommendations would not only be “logistically difficult to implement,
                 it would also unduly punish Ohio’s counties for failing to follow federal
                 administrative rules of which they were not fully aware, or which were
                 not adequately enforced by the previous administration in the Ohio
                 Secretary of State’s Office.”

                 As with the other interest-related finding, the Secretary of State proposed
                 using the State’s overmatch of the requirements payments as an offset to
                 estimated additional interest due of $263, 800. Finally, the response
                 advised that all counties would be required to return any unspent HAVA
                 grant monies to the Secretary of State.

                 Office of Inspector General Comments

                 We believe that the Secretary of State has proposed a reasonable
                 alternative to resolve the additional interest due. As with the previous
                 finding, EAC must determine whether the alternative is also in accordance
                 with all criteria.

                 Weaknesses in recording hours to be financed with HAVA funds resulted
SALARIES AND in minor overcharges to the HAVA accounts. We compared hours worked
FRINGE       by 52 HAVA full-time and part-time staff with the hours recorded in the
BENEFITS     State’s official payroll system. For 49 employees, the hours recorded on



                                          8
their timesheets matched the hours recorded in the Payroll Disbursement
Journal. For three of the employees, the hours recorded on their
timesheets were less than the hours reported in the Payroll Disbursement
Journal. For example, one employee’s timesheet identified 70.5 hours on
HAVA activities yet 80 hours were charged to HAVA. The three errors
totaled $664 in salary costs for hours worked that were in excess of time
recorded on timesheets. Fringe benefit costs of $211 were associated with
the $664 in incorrectly financed salary costs.

Timekeepers recorded in the official Ohio State Payroll System hours
worked for each employee. Because of the errors (a 5.8 percent error
rate), we concluded that the controls over recording hours worked on
HAVA should be improved. Specifically, an independent reviewer should
confirm the accuracy of the hours input by the timekeeper.

The Office agreed with our findings and recommendations. In that regard,
we confirmed that the Office made adjustments to resolve the issue of the
overcharged salary ($664) and fringe benefit ($211) costs. The following
two recommendations, however, have not yet been implemented.

Recommendation:

We recommend that the EAC require the Office to:

   8. Implement a process by which an independent reviewer compares
      HAVA hours recorded in the official Ohio payroll system to
      employees’ timesheets to ensure the accuracy of the data in the
      official payroll system. The reviewer should indicate on the
      timesheets or in the payroll system that the review was completed.

   9. Compare HAVA hours recorded on employees’ timesheets with
      HAVA hours recorded in the Payroll Disbursement Journal for
      prior pay periods in which HAVA salaries were claimed (other
      than pay periods ending June 25, 2005, and July 9, 2005), and
      make adjustments to the HAVA Section 101 fund to reflect salary
      and fringe benefit costs associated with any hours that were
      recorded incorrectly. The applicable Financial Status Reports
      should be adjusted accordingly.

   Secretary of State Response

   The Secretary of State responded that Recommendation 8 will be
   implemented and that her Office had completed the review and
   adjustments resulting from Recommendation 9.




                        9
                                                   APPENDIX A

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed the following:

9 The prior single audit report and other reviews related to the
  Secretary of State’s financial management systems and the HAVA
  program for the past 2 years.
9 Policies, procedures, and regulations for the Ohio Secretary of
  State’s management and accounting systems as they relate to the
  administration of HAVA programs.
9 A sample of inventory lists of equipment purchased with HAVA
  funds.
9 Major purchases.
9 A sample of supporting documents maintained in the accounting
  system for payments made with HAVA funds.
9 A sample of grants and advances to counties.
9 Certain Ohio laws that impacted the HAVA funds.
9 Appropriations and expenditure reports for State funds used to
  maintain the level of expenses for elections at least equal to the
  amount expended in fiscal year 2000 and to meet the 5 percent
  matching requirement for section 251 requirements payments.
9 Information regarding source/supporting documents kept for
  maintenance of effort and matching contributions.
We also interviewed appropriate Elections Division and Finance
Division employees about the organization and operation of the HAVA
program.

We conducted our review in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. As
such, we included tests and procedures as considered necessary under
the circumstances to evaluate the Divisions’ controls over the
administration of HAVA programs and payments. Because of inherent
limitations, a study and evaluation made for the limited purposes of
our review would not necessarily disclose all weaknesses in
administering HAVA payments.




                      10
                                               APPENDIX B

           MONETARY IMPACT

                   Questioned     Additional Funds
    Description      Costs          for Program

Interest                                $6,800,000

Salary costs               $875

Totals                     $875         $6,800,000




                      11
     APPENDIX C




12
     APPENDIX C




13
     APPENDIX C




14
     APPENDIX C




15
     APPENDIX C




16
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
